                                                          Memorandum
        U.S. Department of
        Transportation
        Office of the Secretary
        of Transportation
        Office of Inspector General

       INFORMATION: Audit Announcement-                             Date:    October 16,2006
       Growth in Highway Construction and
       Maintenance Costs
       Project No. 06C3006C000

Fmm:   David Tornquist                                            Reply to   JA-50
                                                                  Attn of:
       Assistant Inspecto Genera
        for Competition and Economic Analysis

       Federal Highway Administrator

       In response to a request from the U.S. House of Representatives Committee on
       Transportation and Infrastructure, the Office of Inspector General plans to conduct
       an audit analyzing the recent growth in highway construction and maintenance
       costs.
       The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy
       for Users, signed into law in August 2005, authorized $244.1 billion for funding
       highway and public transportation projects from Fiscal Year 2005 through Fiscal
       Year 2009. Just over a year later, dramatic cost increases have already led some
       state planners to cancel highway projects due to insufficient funds. Further, it is
       unclear what direction highway costs will follow in the future.
       The objectives of this audit are to determine: (1) the extent of recent cost increases
       for highway construction and maintenance projects, (2) whether the cost increases
       are the product of transitory factors or indicative of longer term structural changes
       that need to be reflected in future transportation infrastructure funding plans, and
       (3) the degree to which these cost increases are subject to regional variations.
       We will conduct the audit work at our headquarters in Washington, D.C.
       Mitchell Behm is the Program Director and Betty Krier is the Project Manager for
       this audit. If you have any questions or need additional information, please
       contact Mr. Behm at (202) 366- 1995 or Ms. Krier at (202) 366- 1422.


       cc:     Audit Liaison, OST, M- 1
               Audit Liaison, FH WA, HAIM- 13
